     Department of Homeland Security

     ��������������������������



        Reducing Over͈classification of DHS’ 

           National Security Information





OIG-13-106                                August 2013

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                Washington, DC 20528 I www.oig.dhs.gov

                                 August 2, 2013

MEMORANDUM FOR:               The Honorable Rafael Borras
                              Under Secretary of Management
                              Department of Homeland Security

FROM:                         Charles K. Edwards             /?{ I J-. cJ         C:~
                              Deputy Inspector General       ~~' \ ' ~
SUBJECT:                      Reducing Over-classification of DHS' National Security
                              Information

Attached for your information is our final report, Reducing Over-classification of DHS'
National Security Information. We incorporated the formal comments from the
Department in the final report.

The report contains two recommendations to aid the efforts of the Office of Management
and the Office of the Chief Security Officer to enhance the program's overall effectiveness.
The Department concurred with both recommendations and, based on information
provided in the Department's response, we consider all recommendations to be open and
resolved.

As prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of the
date of this memorandum, please provide our office with a written response that includes
your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation.

Please email a signed PDF copy of all responses and closeout requests to the Office of
Inspections at OIGinspectionsFollowup@oig.dhs.gov. Until your response is received and
evaluated, the recommendations will be considered resolved and open.
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Deborah L. Outten-Mills, Acting
Inspector General for Inspections, at (202) 254-4015, or Anthony D. Crawford, Intelligence
Officer, at (202) 254-4027.

Attachment




                                             2
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


Table of Contents


Executive Summary ............................................................................................................ 1 



Background ........................................................................................................................ 2 



Results of Review ................................................................................................................ 5 



       General Program Management ............................................................................. 6 

        

       Security Program Management .............................................................................. 7 

       Recommendation.................................................................................................. 12 

       Management Comments and OIG Analysis .......................................................... 13 

        

       Original Classification Authority ........................................................................... 13 

        

       Original Classification and Dissemination of Control Marking Decisions ............. 14 

        

       Derivative Classification and Dissemination of Control Marking Decisions ......... 15 

        

       Security Self-inspection Program.......................................................................... 16 

        

       Security Reporting................................................................................................. 17 

       Recommendation.................................................................................................. 19 

       Management Comments and OIG Analysis .......................................................... 19 

        

       Security Education and Training ........................................................................... 19 

        

       Intelligence Community Cross-cutting Issues....................................................... 21 





www.oig.dhs.gov                                                                                                    OIG-13-106 

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Appendixes
       Appendix A:   Objectives, Scope, and Methodology ............................................ 23
       Appendix B:   Recommendations ......................................................................... 24
       Appendix C:   Management Comments to the Draft Report ............................... 25
       Appendix D:   Document Review Results ............................................................. 27
       Appendix E:   Major Contributors to This Report ................................................ 29
       Appendix F:   Report Distribution ........................................................................ 30

Abbreviations
       ASD            Administrative Security Division
       CAPCO          Controlled Access Program Coordination Office
       CBT            computer-based training
       CCSO           Component Chief Security Officer
       CFR            Code of Federal Regulations
       CIAO           Classified Information Advisory Officer
       CMT            Classification Management Tool
       DHS            Department of Homeland Security
       DNDO           Domestic Nuclear Detection Office
       E.O.           Executive Order
       FCGR           Fundamental Classification Guidance Review
       I&A            Office of Intelligence and Analysis
       IC             intelligence community
       ICD            Intelligence Community Directive
       IPAG           Intelligence Policy Advisory Group
       ISOO           Information Security Oversight Office
       LMS            Learning Management System
       NPPD           National Protection and Programs Directorate
       NSI            national security information
       OCA            original classification authority
       OCSO           Office of the Chief Security Officer
       ODNI           Office of the Director of National Intelligence
       OIG            Office of Inspector General
       P.L.           Public Law
       SCG            security classification guide
       SCR            security compliance review
       S&T            Science and Technology Directorate
       STWG           Security Training Working Group
       USCG           U.S. Coast Guard
       USSS           United States Secret Service

www.oig.dhs.gov                                                                                    OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
The Department of Homeland Security (DHS) creates, receives, handles, and stores
classified information as part of its homeland security, emergency response, and
continuity missions. As creators and users of classified information, DHS is responsible
for both implementing national policies and establishing departmental policies, to
ensure that such information is adequately safeguarded when necessary and
appropriately shared whenever possible. With proper classification of intelligence
products, DHS can share more information with State, local, and tribal entities, as well
as the private sector.

The Reducing Over-Classification Act of October 2010 (Public Law 111-258) requires the
DHS Secretary to develop a strategy to prevent the over-classification and promote the
sharing of homeland security and other information. This is the first of two reviews we
are mandated to conduct under this act.

Specifically, we assessed the overall state of the DHS national security information
program and reviewed 13 DHS components to determine whether applicable
classification policies, procedures, rules, and regulations have been adopted, followed,
and effectively administered. We also identified policies, procedures, rules, regulations,
and management practices that may be contributing to persistent misclassification. We
coordinated with other Offices of Inspector General and the Information Security
Oversight Office of the National Archives and Records Administration to ensure that our
review’s evaluations followed a consistent methodology that allowed for cross-agency
comparisons.

As a result of our review, we determined that DHS has adopted and successfully
implemented all policies and procedures required by applicable Federal regulations and
intelligence community directives. Through implementing Office of the Chief Security
Officer’s policies and procedures, DHS has a strong program that should lead to better
communication and sharing of intelligence throughout the Federal Government and with
State, local, and tribal entities, as well as private sector partners. However, the
Department’s program can be strengthened by deploying a new classification management
tool after testing, and by capturing all classified holdings better. We are making two
recommendations that when implemented will improve the Department’s overall
management of its classification processes. The Department concurred with both
recommendations.




                                            1
www.oig.dhs.gov                                                               OIG-13-106
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Background
Since 1940, executive orders have directed government-wide classification standards
and procedures. On December 29, 2009, President Obama signed Executive Order
(E.O.) 13526, Classified National Security Information (order), which establishes the
current principles, policies, and procedures for classification. The order prescribes a
uniform system to classify, safeguard, and declassify national security information (NSI).
According to the order, the Nation’s progress depends on the free flow of information
within the Federal Government and to the public. Protecting information critical to
national security and demonstrating a commitment to open government through
accurate and accountable application of classification standards and routine, secure,
and effective declassification are equally important priorities. Misclassification of
national security information impedes effective information sharing and may provide
adversaries with information that could harm the United States and its allies and cause
millions of dollars in avoidable administrative costs.

According to the order, information that is determined to require protection from
unauthorized disclosure in order to prevent damage to national security must be
marked appropriately to indicate its classification. The expected damage to national
security determines the classification level, as follows:

   •	 Top Secret – applied to information, the unauthorized disclosure of which could
      reasonably be expected to cause exceptionally grave damage to national security
      that the original classification authority is able to identify or describe.
   •	 Secret – applied to information, the unauthorized disclosure of which could
      reasonably be expected to cause serious damage to national security that the
      original classification authority is able to identify or describe.
   •	 Confidential – applied to information, the unauthorized disclosure of which
      could reasonably be expected to cause damage to national security that the
      original classification authority is able to identify or describe.

Also according to the order, no other terms are to be used to identify U.S. classified
information, except as otherwise provided by statute. If significant doubt exists about
the need to classify or the appropriate level of classification, the information shall not
be classified or shall be classified at the lower level.

Only original classification authorities (OCAs) authorized in writing by the President, the
Vice President, or agency heads or other officials designated by the President may
originally classify information. Prior to originally classifying information, OCAs must be
trained on proper classification, and they must be trained at least once per year


                                             2

www.oig.dhs.gov	                                                                OIG-13-106 

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


thereafter. To make an original classification decision, an OCA must determine whether
the information meets the following standards for classification:

   •	 The information is owned, controlled, or produced by or for the Federal 

      Government; 

   •	 The information falls within one or more of the eight categories (reasons for
      classification) of information described in Section 1.4 of E.O. 13526; and
   •	 The unauthorized disclosure of the information reasonably could be expected to
      result in damage to national security that the OCA is able to identify or describe.

Original classification precedes all other aspects of the security classification system,
including derivative classification, safeguarding, and declassification.

As an OCA, so delegated by the President, the DHS Secretary has the authority to classify
information pursuant to classification standards cited in the order, and to further
delegate such authority to additional DHS officials. The Secretary has delegated
classification authority to designated subordinate officials who need to exercise this
authority.

Derivative classification means incorporating, paraphrasing, restating, or generating in
new form information that is already classified, and marking the newly developed
material according to classification markings that apply to the source information.
Derivative classification includes the classification of information based on classification
guidance. The duplication or reproduction of existing classified information is not
derivative classification.

Personnel who apply derivative classification markings must be trained to apply the
principles of E.O. 13526 prior to derivatively classifying information and at least once
every 2 years thereafter. Information may be derivatively classified from a source
document or documents, or by using a classification guide.

Authorized holders of information (including holders outside the classifying
organization) who believe that a classification is improper are encouraged and expected
to challenge the classification status of the information.

Federal Government departments and agencies that create or hold classified
information are responsible for its proper management. Classification management
includes developing classification guides with OCA instructions for derivative classifiers
that identify information on specific subjects that must be classified, as well as the level
and duration of classification. Applying standard classification and control markings is
one of the most effective ways to uniformly and consistently identify and protect


                                              3

www.oig.dhs.gov	                                                                 OIG-13-106 

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


classified information. Effective program management also includes comprehensive 

mandatory training for classifiers and a comprehensive self-inspection program. 


Federal Government departments and agencies also may have systems of restrictive 

caveats that can be added to documents. These restrictions are not classifications;

rather, they limit the dissemination of information.


Over-classification is defined as classifying information that does not meet one or more 

of the standards necessary for classification under E.O. 13526. Over-classification 

results in the unnecessary protection of information that is not sensitive, and inhibits 

the sharing of critical information. 


The Reducing Over-Classification Act of October 2010 requires the DHS Secretary to 

develop a strategy to prevent the over-classification and promote the sharing of 

homeland security and other information. This is the first of two reviews the act 

mandates. Specifically, we assessed whether DHS Headquarters and its components 

and offices have adopted, followed, and effectively administered applicable 

classification policies, procedures, rules, and regulations; identified policies, procedures, 

rules, regulations, or management practices that may be contributing to persistent 

misclassification; and coordinated with other Inspectors General and the Information

Security Oversight Office (ISOO) to ensure that our evaluations followed a consistent 

methodology that allowed for cross-agency comparisons.1


We reviewed the DHS Office of the Chief Security Officer (OCSO) and the following 13 

DHS components that are able to handle, produce, and classify information: 


Domestic Nuclear Detection Office (DNDO) 

Federal Emergency Management Agency

Federal Law Enforcement Training Center

National Protection and Programs Directorate (NPPD) 

Office of Inspector General (OIG) 

Office of Intelligence and Analysis (I&A) 

Science and Technology Directorate (S&T) 

Transportation Security Administration

U.S. Citizenship and Immigration Services
U.S. Coast Guard (USCG)
U.S. Customs and Border Protection
U.S. Immigration and Customs Enforcement

1
 ISOO, a component of the National Archives and Records Administration, is responsible to the President
for policy and oversight of the government-wide security classification system and the National Industrial
Security Program. ISOO receives policy and program guidance from the National Security Council.

                                                    4

www.oig.dhs.gov                                                                              OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


United States Secret Service (USSS)


Results of Review
This is the first of two reports required by Section 6(b) of the Reducing Over-
Classification Act, which mandates that OIGs of Federal departments and agencies with
officers or employees authorized to make original classifications (1) assess whether
applicable classification policies, procedures, rules, and regulations have been adopted,
followed, and effectively administered within the department or agency; and (2) identify
policies, procedures, rules, regulations, or management practices that may be
contributing to persistent misclassification of material. The act was designed to prevent
over-classification and over-compartmentalization of information, while promoting the
sharing and declassifying of it, as prescribed by Federal guidelines. In this report, we
address areas of classification management and control marking programs. For the
second report, which is due on September 30, 2016, we will focus on follow-up efforts
to this report’s recommendations.

In assessing the DHS program, we reviewed the classification management and control
marking programs of the OCSO and 13 components to ensure that they have the
necessary resources to implement programs effectively, records systems are designed
and maintained to optimize appropriate sharing and safeguarding of classified
information, and senior agency officials are designated to direct and administer
programs.

DHS OCSO and its components have implemented, managed, and provided oversight
effectively for a classified National Security Information program as outlined in E.O.
13526, Classified National Security Information; Public Law (P.L.) 111-258, Reducing
Over-Classification Act; 32 Code of Federal Regulations (CFR), Part 2001; and Intelligence
Community Directive (ICD) Number 710, Classification and Control Markings System,
September 2009. Specifically, the OCSO has created and implemented policies and
procedures that established a firm foundation for DHS. DHS has met the program
management, classification management, security education and training, and self-
inspections requirements as specified in E.O. 13526 and 32 CFR, Part 2001. The
Department has also fulfilled the requirements for classification guides, as well as
original and derivative classification authorities, and how to challenge incorrect
classifications.

However, we identified areas where improvements are needed. For example, 59 of the
372 DHS documents we reviewed contained declassification, sourcing, and marking
errors. Also, all Classification Management Tools (CMTs) were outdated, which led to

                                            5

www.oig.dhs.gov                                                               OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


declassification errors. Errors could lead to documents not being shared or being shared
with personnel not cleared to handle them. DHS could also improve its collection of
component information on classified holdings and its original and derivative
classification decisions.

       General Program Management

       Program Management Overview

       The Administrative Security Division (ASD) in the OCSO of the Management
       Directorate directs and implements DHS’ National Security Information Program.
       Under the authority of the E.O., the Secretary has appointed the DHS Chief
       Security Officer as the Department’s senior agency official with responsibility for
       ensuring the program is in compliance with all Federal directives, policies, and
       laws, and is adopted and implemented by all DHS components that handle and
       classify national security information.

       ASD and senior management create and implement classification policies for all
       DHS components and for all State, local, tribal, and private sector entities as the
       policies relate to Homeland Security. Senior management direction has enabled
       ASD to instruct DHS components and ensure that the Department is in
       compliance with all policies. Coordination among senior management, the
       OCSO, and Component Chief Security Officers (CCSOs) in components and offices
       has enhanced the proper classification, declassification, handling, and
       safeguarding of information. Senior management is apprised of all security
       policy changes, and reviews all reported security violations and self-inspection
       results.

       DHS Instruction 121-01-011 specifies the procedures and requirements for
       classification challenges, sanctions, self-inspections, reporting and definitions,
       and security training. Eight of the 13 components and offices that we reviewed
       have CCSOs who oversee their respective programs and implement changes to
       instructions from the OCSO. The other five Headquarters offices—DNDO, NPPD,
       OIG, I&A, and S&T—have internal security staff and, with the exception of OIG,
       OCSO security support embedded within the offices to assist with
       implementation and oversight of security matters.

       DHS CCSO’s and other invited officials meet once a quarter to discuss security
       issues and policy changes. DHS uses various working groups, such as the group
       that creates instructional documents for the NSI program. I&A and the USCG
       also attend the Classification Management Intelligence Working Group and
       Classification Management Tools Working Group as members of the Intelligence

                                            6

www.oig.dhs.gov                                                               OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Community (IC). These working groups have led to improvements in security
       classification guides and training, and have enhanced the Department’s
       classification culture.

       Security Program Management

       According to ISOO’s October 2008 evaluation of DHS’ information security
       program, DHS’ oversight and consistent implementation of the program
       complied with applicable policies and regulations. However, ISOO identified
       weaknesses in classification markings, self-inspections, and personnel
       performance plans.

       This section will focus on the core issues of security program management,
       including DHS’ responsibilities in implementing its security program in
       compliance with E.O. 13526. These include the agency head’s responsibility to
       support the program and the responsibility of the senior agency official
       designated by the agency head to direct and administer the program. DHS has
       an appointed senior agency official to direct and administer the program, whose
       responsibilities include the following:

           •	 Overseeing the program established under E.O. 13526;
           •	 Issuing implementing regulations;
           •	 Establishing and maintaining security education and training programs;
           •	 Establishing and maintaining an ongoing self-inspection program;
           •	 Ensuring that the designation and management of classified information
              is included as a critical rating element for OCAs, security managers or
              security specialists, and all other personnel whose duties significantly
              involve the creation or handling of classified information, including those
              who apply derivative classification markings; and
           •	 Establishing a secure capability to receive information, allegations, or
              complaints regarding over-classification or incorrect classification within
              the agency and providing guidance to personnel on proper classification,
              as needed.

       Classification Management and Control Marking Policies

       DHS has adopted and implemented effectively all critical elements required for
       applicable classification policies, procedures, rules, and regulations in E.O. 13526
       and 32 CFR, Part 2001. Subsequent to the issuance of the E.O. in 2009, DHS
       revised and consolidated existing administrative information security policies


                                            7

www.oig.dhs.gov	                                                               OIG-13-106 

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           into a single Department-wide instruction that reflected and effectively
           implemented changes resulting from publication of the E.O.

           As required by the Reducing Over-Classification Act, DHS appointed a Classified
           Information Advisory Officer (CIAO) to assist in sharing information with State,
           local, and tribal entities; law enforcement; and the private sector.2 DHS
           appointed a CIAO in November 2010 and submitted written notification to the
           U.S. Senate Homeland Security and Governmental Affairs Committee and House
           Committee on Homeland Security. The CIAO’s duties include those described in
           the act and E.O. 13549, Classified National Security Information Program for
           State, Local, Tribal, and Private Sector Entities, and the implementing directive
           for E.O. 13549 approved by the Secretary in February 2012. Before passage of
           the act, DHS made efforts to educate State and local partners in the
           identification, classification, safeguarding, and handling of classified information,
           and it continues to do so.

           ASD’s DHS Instruction 121-01-011, The Department of Homeland Security
           Administrative Security Program, of April 2011, establishes procedures, program
           responsibilities, minimum standards, and reporting protocols for DHS. The
           instruction cites E.O. 13526 and 32 CFR, Part 2001 for authorization of its NSI
           program. DHS also follows all Controlled Access Program Coordination Office
           (CAPCO) instructions for classified markings in ICD 710, where required.

           DHS Instruction 121-01-011 does not address special access programs, which are
           governed by DHS Directive 140-04, Special Access Program Management, and
           DHS Instruction 140-04-001, Special Access Program Implementation. These are
           reviewed annually in compliance with E.O. 13526.

           All 13 DHS components and offices that we reviewed have adopted and
           implemented the policies and procedures required in DHS Instruction 121-01-
           011. CCSOs agree that the DHS instructions provide the necessary information
           for efficient and effective security programs. Only USSS and the USCG have
           developed supplemental instructions related to their specific security programs;
           the Federal Law Enforcement Training Center is developing a security policy as a
           subset to the DHS instruction.

           DHS has published 6 CFR, Part 7, which covers DHS-classified NSI and is currently
           awaiting Office of General Counsel approval for an updated version to be in
           compliance with E.O. 13526.


2
    P.L. 111-258, Reducing Over-Classification Act, Section 4(a).

                                                        8

www.oig.dhs.gov                                                                     OIG-13-106 

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       OCSO senior management stated that reducing over-classification is important,
       and has demonstrated the Department’s successful adaptation and
       implementation of the security program established in E.O. 13526. DHS’
       commitment to ensuring that the security program is implemented effectively as
       established under this order is evident throughout the Department’s
       components and offices.

       Classification Management Tools

       CMTs allow users to automatically apply classification markings to electronic
       documents. Not all DHS components are using CMTs, and where a CMT is used it
       has not been updated to reflect changes resulting from the publication of E.O.
       13526. Thus, DHS’ use of CMTs is not in complete compliance with E.O. 13526,
       and classifiers may be incorrectly classifying or declassifying information in their
       documents. We believe that the new CMT will reduce errors in classification and
       declassification and eliminate some current marking issues.

       During our document review, we also identified a problem with using a specific
       declassification exemption called 50X1-HUM.3 Documents that should have
       been marked 50X1-HUM were marked with either a numerical 50-year date or
       “25x1” and a 50-year date. This problem stems from current CMTs not allowing
       the use of 50X1-HUM as the proper classification.

       In addition, in some components and offices, CMTs do not allow for changes to
       classification carried over from the source. Some CMTs also do not offer proper
       exemptions, which results in extended declassification dates, and do not prompt
       users to mark portions of the body of an email.

       A CMT should allow a user to apply correctly formatted classification markings to
       electronic documents automatically. Based on classification criteria the user
       selects, the CMT automatically generates portion markings, a classification
       banner (header and footer), and a classification authority block to cover original
       and derivative information. The CMT also allows the user to validate the portion
       marks against the banner, ensuring marking consistency and more effective
       protection of national security.

       DHS is currently testing a new CMT developed by the IC, which may be used for
       all DHS components with C-LAN access. The new CMT is in accordance with E.O.

       3
        50X1-HUM is a term used for an exemption to declassifying information after 50 years, which is
       the timeframe in E.O. 13526 and 32 CFR, Part 2001. It reflects a decision by the Interagency
       Security Classification Appeals Panel to classify information beyond 50 years.

                                                 9

www.oig.dhs.gov                                                                          OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       13526; 32 CFR, Part 2001; and CAPCO guidance. DHS has adopted the IC format,
       but has also included specific caveats and security classifications guides (SCGs)
       for DHS missions. The tool is still in its pilot stage; therefore, only a few select
       employees from nine components have access to it. The new CMT provides all
       appropriate exemptions, allowing for a proper declassification date, and it
       enables users to change the classification levels of emails to reflect new ones; it
       also prompts users to mark portions of documents.

       Challenging Classification

       In accordance with E.O. 13526, DHS Instruction 121-01-011 includes procedures
       for informally and formally challenging the classification status of information,
       noting that all DHS employees and contractors may challenge any classification
       that they believe might be over- or under-classified.

       DHS senior management we interviewed believes that challenging the
       classification status of information is part of an employee’s job. When asked, 90
       out of 100 DHS derivative classifier interviewees said that they believed offering
       incentives may lead to unnecessary challenges, and challenges will be raised not
       in the spirit of reducing classification but for incentive reasons.

       An authorized holder of classified information is not prohibited from informally
       questioning the classification of information through direct and informal contact
       with the classifier. All persons interviewed said they preferred informal
       questioning for handling classification challenges, but they recognized this does
       not always solve the issue and a formal process may be necessary.

       The DHS instruction includes a process for formal challenges. Formal challenges
       must be written and presented to an OCA with jurisdiction over the challenged
       information. The OCA then must provide a written classification or
       declassification decision to the challenger within 60 days of receipt. The
       individual submitting the challenge has a right to appeal the decision to the
       Interagency Security Classification Appeals Panel established by Section 5.3 of
       E.O. 13526 and/or the DHS Chief Security Officer acting as the senior agency
       official, who convenes a DHS Classification Appeals Panel. Individuals who
       challenge classifications are not subject to retribution. ASD honors a challenger’s
       request for anonymity and serves as his or her agent in processing the challenge.
       DHS has a secure capability to receive information, allegations, or classification
       challenges.




                                            10

www.oig.dhs.gov                                                                OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       ASD and CCSOs should continue communicating to employees the importance of
       challenging the classification status of information to both protect and promote
       the sharing of information.

       Security Violations and Sanctions

       We determined that DHS Instruction 121-01-011 is in compliance with E.O.
       13526 as it relates to security violations and sanctions. The DHS instruction
       includes a process for handling security violations and sanctioning violators.

       According to the E.O., the agency head, senior agency official, or other
       supervisory official should, at a minimum, promptly remove the classification
       authority of any individual who demonstrates reckless disregard or a pattern of
       error in applying the classification standards of this E.O. Incidents involving the
       mishandling or compromise of classified information must be reported promptly
       to the servicing security official and investigated thoroughly to determine the
       cause. Security officials must assess and mitigate potential damage, and
       implement measures to prevent recurrence. The agency head or senior agency
       official must take appropriate and prompt corrective action and notify the
       Director of ISOO when certain violations occur.

       The DHS instruction also includes information on reporting a security incident,
       reportable security incidents, security inquiries, and what constitutes a formal
       investigation. It covers incidents involving classified information within
       information technology systems, security violations and infractions in foreign
       countries, other agency security violations and infractions, and sanctions.

       To conduct a proper inquiry or investigation and respond to possible security
       incidents, DHS components and offices gather and include key information, such
       as names, dates, causes, and mitigation efforts in the Security Inquiry Reports.
       Once completed, a report is forwarded to the official(s) with jurisdiction over the
       component or office where the security incident occurred, as well as the
       person(s) involved, for further action as appropriate. A copy of the report is also
       forwarded to the servicing personnel security office, where it is filed within the
       personnel security folder of the individual(s) found to be culpable for
       commission of the incident.

       According to the instruction, sanctions may include verbal or written counseling,
       reprimand, suspension from duty with or without pay, removal, or revocation of
       access to classified information, termination of classification authority, or
       criminal penalties. Administrative sanctions are assessed in accordance with the
       policies, procedures, and practices established by the human capital office in the

                                           11

www.oig.dhs.gov                                                               OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       component or office. Security clearances must be revoked or suspended in
       accordance with applicable E.O.s and Office of the Director of National
       Intelligence (ODNI) policies and regulations.

       When a proposed sanction associated with the unauthorized disclosure of
       classified information exceeds a reprimand, the matter must be coordinated
       with the DHS Office of General Counsel. Further, if there is an allegation that a
       criminal violation has occurred, the matter is coordinated with the Office of
       General Counsel and the Department of Justice.

       Recommendation

       We recommend that the Office of Management:

       Recommendation #1: Ensure that DHS fully deploys the new Classification
       Management Tool to all DHS components and offices when pilot testing is
       completed.

       Management Comments and OIG Analysis

       We evaluated the Department’s written response and have made changes to the
       report where we deemed appropriate. A summary of the Department’s written
       response to the report recommendations and our analysis of the response
       follows each recommendation. A copy of DHS’ response, in its entirety, is
       included as appendix C.

       In addition, we received technical comments from the Department and
       incorporated these into the report where appropriate. DHS concurred with all
       recommendations in the report. We appreciate the comments and contributions
       made by DHS.

       Management Response: Office of Management officials concurred with
       recommendation 1. In its response, the Office of Management said that the
       CMT pilot phase of testing is being finalized, and the funded purchase request
       for DHS to procure the CMT is processing through the procurement system to
       create an interagency agreement with the owning agency to be completed
       within the coming weeks. The Office of the Chief Information Officer will
       proceed with full deployment of the tool to the top secret and secret networks.
       Concurrent with full deployment, OCSO will conduct initial individualized training
       essential to the successful deployment and use of the CMT. The Office of
       Management estimates a completion date of February 28, 2014.


                                           12

www.oig.dhs.gov                                                               OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       OIG Analysis: We consider the Office of Management’s actions responsive to
       the intent of Recommendation 1, which is resolved and open. This
       recommendation will remain open pending full deployment of CMT.

       Original Classification Authority

       We determined that the DHS Secretary, in accordance with Federal guidance,
       designated OCAs to determine the original classification of documents. We
       determined that the OCAs are following processes described in E.O. 13526 and
       32 CFR, Part 2001 for making original classification decisions.

       Original Classification Authority Designation

       In accordance with Section 1.3 of E.O. 13526 and 32 CFR Section 2001.11, the
       DHS Secretary designates various DHS officials who are authorized to classify
       national security information. In DHS Delegation 8100, version 5, Delegation of
       Original Classification Authority, issued in June 2010, the DHS Secretary
       delegated original classification authority for Top Secret, Secret, and Confidential
       to 18 OCAs; 7 OCAs were delegated authority for Secret and Confidential. DHS
       reports OCA delegations to the Director of ISOO annually, as directed by Federal
       policies. Designating OCAs by position ensures clarity and continuity of
       classification responsibilities; if a person in a position delegated as an OCA
       cannot fulfill the duty or leaves the position, the successor inherits the duty and
       responsibilities of the OCA.

       Original Classification Authority Program Training and Knowledge

       All OCAs have received annual training as prescribed in E.O. 13526 and 32 CFR,
       Part 2001. At the time of this report, DNDO’s OCA was scheduled for training.
       The training covers duties and responsibilities of an OCA and the proper
       application of classification markings. According to DHS Instruction 121-01-011,
       authority will be suspended for OCAs who fail to complete OCA training annually
       or in a timely manner.

       The two OCAs we interviewed were knowledgeable about their duties and
       responsibilities in executing their mission. They were able to identify and
       describe the different types of damage to national security in cases of
       unauthorized disclosure of Top Secret, Secret, or Confidential information. The
       OCAs also understood that if their duties are not carried out as stated in E.O.
       13526 or the CFR, they could be subjected to sanctions that include reprimand,
       suspension without pay, removal, loss of classification authority, loss or denial of


                                            13

www.oig.dhs.gov                                                                OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       access to classified information, or other sanctions in accordance with applicable
       laws and Department regulations. Also, that their OCA authority may be
       suspended if they do not receive training in a timely manner.

       We interviewed two OCAs that said they made original classification decisions
       within the past year. The original classification documents we reviewed were in
       accordance with Section 1.4 of E.O. 13526, which specifies the types of
       information that should be considered for classification.

       Most DHS components and offices are consumers of intelligence information and
       rarely have to make original classification decisions. In fact, few DHS OCAs have
       made original classification decisions. Although OCAs may make few or no
       original classification decisions in a year, some have published and must
       maintain security classification guidance and OCAs must be available to address
       classification-related questions. As such, the current number of DHS OCAs is
       consistent with the need for OCAs as stipulated in E.O. 13526.

       Original Classification and Dissemination of Control Marking Decisions

       To communicate an original classification decision, the information to which the
       decision applies, the classification level, declassification instructions, and any
       other special instructions, security classification guides are written and approved
       by the OCA. SCGs provide requirements and standards for classifying
       information related to a department or agency’s mission. According to E.O.
       13526, information should be considered for classification if it covers specific
       categories, or if the compilation of related information meets the order’s defined
       standards and criteria for classification and it falls under one or more of the
       categories of information listed in Section 1.4 of the order.

       We determined that the eight SCGs we reviewed are in accordance with all
       policies, procedures, rules, and regulations. OCSO efforts for DHS components
       to write streamlined and uniform SCGs have led to a reduction of SCGs for the
       Department.

       As of July 2012, DHS has 45 SCGs, down from 74 the previous year. The eight
       SCGs that we reviewed contained information related to the types, topics,
       reasons, levels, and duration of classifications, as described in E.O. 13526. All
       SCGs we reviewed were signed by an OCA delegated by the DHS Secretary. As
       per DHS Instructions, the OCSO maintains a master index of all DHS-published
       SCGs. OCSO initiates a review of the Department’s SCGs at least every 5 years,
       which is in compliance with 32 CFR, Part 2001.


                                           14

www.oig.dhs.gov                                                               OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       Derivative Classification and Dissemination of Control Marking Decisions 


       DHS is a vast consumer of intelligence information and the majority of DHS
       intelligence products are derivatively classified. Through interviews with 100
       derivative classifiers department-wide, we determined that 95 of them are able
       to derivatively classify information properly, and have an overall understanding
       of the derivative classification process.

       We determined that DHS Instruction 121-01-011 covers the use and inclusion of
       source materials and determining correct classification and declassification for
       derivative classifiers to make a decision. It also includes information on using
       technical documents or notes, foreign government information, and transmittal
       documents. Each section of the instruction describes the requirements for
       classification, as well as means of reducing over-classification, as specified in E.O.
       13526 and 32 CFR, Part 2001.

       According to the CCSOs and the personnel we interviewed, all had received
       training in the past 2 years and had received annual refresher training. They
       received classification training at the DHS Entry-on-Board course, through
       training by DHS security trainers and Special Security Officer trainers, online,
       through video teleconferencing, or via compact disks.

       The derivative classifiers that we interviewed said that the required 2-year
       annual training for derivative classifiers and the annual refresher training are
       helpful in their classification duties. All individuals, except one, believed that
       training was adequate in teaching them how to make derivative classification
       decisions and how to apply classification markings properly. Eighty interviewees
       noted that they would like more hands-on training to ensure they could classify
       information properly.

       All DHS derivative classifiers interviewed were able to define their
       responsibilities for derivative classification and the differences between
       derivative and original classification. They explained the key elements included
       in marking classified documents and handling caveats for their respective
       component and in compliance with CAPCO guidance.

       All personnel knew how to determine declassification dates for documents
       derived from multiple sources or that carried forward multiple dates. Most
       determined that they would use a matrix approach to ensure they were
       capturing all dates and exemption categories.



                                            15

www.oig.dhs.gov                                                                  OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       When asked what derivative classifiers should do if they encountered
       information that they believed should be classified and is not, all answered that
       they would first secure the document to the level they think it should be
       classified. Next, they would contact the originating source to determine why it
       was not classified. If the originating source could not answer, they would
       contact their Senior Security Officer for clarification and to determine whether
       an OCA could classify the information.

       The staff we interviewed knew whether their component or office had an OCA
       and SCGs. However, 15 of the 75 personnel whom we interviewed at
       components with SCGs had not used the guides because they have not seen
       them.

       All persons interviewed knew and were trained on the process of formally or
       informally challenging a classification, but some stated that they would be
       reluctant to disagree with the originator’s classification. They did not fear
       retribution from senior management, but they did not believe that they were
       experts in challenging classifications.

       The derivative classifiers we interviewed believe that senior management and
       policies are sufficient to create, protect, and disseminate classified documents.
       The derivative classifiers stated that they had seen improvement in security
       practices, classifying, and marking of documents.

       Security Self-Inspection Program

       According to the 2008 ISOO On-site Review of DHS, its security compliance
       review (SCR) program, which includes the self-inspection program, was one of
       the weaker areas of the Department’s NSI program. However, we determined
       that the security compliance review program, specifically the self-inspection
       program, is one of the strongest parts of the program now. Each DHS
       component and office that generates classified information is required to
       establish a self-inspection program. The self-inspection includes reviews of
       original classification, derivative classification, declassification, safeguarding,
       security violations, security education and training, and management and
       oversight, to ensure compliance with E.O. 13526 and 32 CFR, Part 2001. During
       self-inspections, components and offices examine classified products, email, and
       presentations for proper classifications and markings. We verified that the OCSO
       and the 13 components and offices we reviewed had conducted SCRs or self-
       inspections and sent their findings to senior leadership within the past 12
       months.


                                           16

www.oig.dhs.gov                                                               OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       ASD created and disseminates to the components a standardized checklist for
       their use in conducting a self-inspection once a year. Further, ASD conducts a
       compliance review of each component program once every 18 months.
       Component or office heads or designated Senior Security Officers may conduct
       unlimited self-inspections. The SCR team from ASD inspects every aspect of the
       NSI program and interviews personnel to gauge their understanding of policies
       and procedures in handling, safeguarding, and classifying information.

       SCRs conducted by the SCR team or self-inspections by CCSOs include personal
       interviews with derivative classifiers to determine whether they are aware of
       their responsibilities for reducing over-classification and to determine their
       knowledge of proper markings. Part of each inspection is a classification review
       of a sample set of documents and a security check to determine whether proper
       security procedures are followed. Upon completion of the SCR or self-
       inspection, the results are compiled into a single report, which is presented to
       senior management. Reports are also sent to inspected areas so that necessary
       corrections can be made.

       ASD provides its compliance review findings to component or office senior
       management and gives them a timeframe to respond with corrective measures.
       In accordance with E.O. 13526, ASD provides ISOO with an annual report
       reflecting the status of the DHS self-inspection and SCR programs.

       Classified Document Review

       We determined that DHS is doing a good job of applying classification to their
       documents as spelled out in the order and CFR. In our review, of the 372
       classified documents, 59 or approximately 16 percent contained errors. For
       example, 23 documents had incorrect declassification dates and 14 were missing
       information on the classifier. Incorrect declassification dates could affect the use
       and sharing of information; not naming the classifier could call into question
       whether the individual had the proper authority to classify the document.
       Although most errors were minor and could have been avoided if classifiers were
       more precise, until DHS has a new CMT, these issues will likely continue.

       Security Reporting

       As required by E.O. 13526 and 32 CFR, Part 2001, DHS has provided all statistical
       reports to ISOO on classification activities, costs, fundamental classification
       guidance reviews, self-inspections, and security violations in a timely manner.




                                           17

www.oig.dhs.gov                                                                OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       Fundamental Classification Guidance Review

       The Fundamental Classification Guidance Review (FCGR) serves as a benchmark
       for Federal agencies to ensure proper classification of information vital to
       national security, while expediting declassification by avoiding over-classification
       and unnecessary withholding of records. Accurate and current classification
       guides also ensure standardized classification within and across Federal agencies.
       Overall, our review shows that DHS is streamlining classification guidance and
       more clearly identifying categories of what can be released and what needs to
       remain classified.

       In 2012, DHS conducted a FCGR of all 74 of its existing SCGs and reported the
       results to ISOO in July 2012. Of the 74 SCGs, 45 were revised, revalidated, and
       reissued; 16 were canceled; 11 were merged or absorbed into other guides; and
       2 were transferred to other agencies. The 45 SCGs equated to a 39 percent
       reduction. Additionally, the DHS publications Security Classification Guides – A
       Guide for Writing a DHS Security Classification Guide and Original Classification –
       A Guide for Original Classification Authorities were revised and reissued to
       ensure consistency with and reflect changes resulting from the publication of
       E.O. 13526.

       Classification Statistics Report

       Although DHS reports security classification program statistics to ISOO as
       required by E.O. 13526 and 32 CFR, Part 2001, these statistics may not be
       accurate. DHS captures this classification information on the SF 311 Agency
       Security Classification Management Program Data form. Each DHS component
       and office compiles statistics and submits a single SF 311 form; the OCSO then
       compiles the statistics into one overall DHS report. Because of the increased use
       of the electronic environment to share and disseminate information, DHS
       includes in its statistics all classification decisions, regardless of media. Two
       CCSOs believe that the estimates on SF 311 forms may not be as accurate as they
       could be because, although the OCSO gives general directions on using the
       forms, each component and office has its own system for compiling statistics. By
       not having a standard way to collect statistics, DHS may not be able to report a
       true representation of its classified holdings or decisions.

       Cost Estimate Report

       As required by E.O. 13526, DHS submitted a cost estimate for classification-
       related activities in fiscal year 2012, SF 176, Cost Estimate Report, to ISOO in


                                            18

www.oig.dhs.gov                                                                 OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       February 2013. The report was based on information provided by DHS
       components and offices.

       Recommendation

       We recommend that the Office of the Chief Security Officer:

       Recommendation #2: Create and implement a standard method for
       components to collect and report information for the SF 311 Agency Security
       Classification Management Program Data form.

       Management Comments and OIG Analysis

       Management Response: OCSO officials concurred with recommendation 2. In
       its response, OCSO said that it will explore the feasibility of creating a
       standardized method of accounting for classification decisions. OCSO stated that
       the accuracy and reliability of data reported through the SF 311 report is
       currently under discussion among reporting agencies within the executive
       branch, under the leadership of ISOO. OCSO will continue to support the ISOO in
       resolving reliability and accuracy issues of this reporting requirement. Pending
       any changes to the reporting criteria stipulated by ISOO, OCSO will coordinate
       with DHS Component Chief Security Officials to evaluate the feasibility of
       creating a standard DHS method for collecting the data. OCSO estimates a
       completion date of September 30, 2013.

       OIG Analysis: We consider the Office of Management’s actions responsive to
       the intent of recommendation 2, which is resolved and open. This
       recommendation will remain open pending documentation of new reporting
       criteria directed by ISOO or by OCSO for the Department.


       Security Education and Training

       DHS classification training has been developed in accordance with E.O. 13526
       and 32 CFR, Part 2001. The ASD Security Training Branch leads a working group
       that includes attendees from each component and office, to create standardized
       training for the entire Department.

       The DHS Security Education and Training Awareness program encompasses
       initial training, annual refresher training, and specialized training for OCAs and
       those who apply derivative classification markings, as well as termination
       briefings, designed to:
                                            19

www.oig.dhs.gov                                                                 OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


           •	 Ensure that all employees who create, process, or handle classified
              information have a satisfactory knowledge and understanding of
              classification, safeguarding, and declassification policies and procedures;
           •	 Increase uniformity in the conduct of agency security education and
              training programs; and
           •	 Reduce instances of over-classification or improper classification,
              improper safeguarding, and inappropriate or inadequate declassification
              practices.

       The Security Training Branch has created, implemented, and conducted
       adequate original and derivative classification training that is up-to-date and in
       compliance with E.O. 13526 and 32 CFR, Part 2001. According to training
       management personnel we interviewed, derivative training is accessible and
       held more frequently than initially indicated by component and office employees
       we interviewed. During compliance reviews, ISOO has commended DHS training
       management for its successful work for conducting and implementing training.
       The only inhibiting factor is the shortage of staff; however, the office has been
       able to disseminate training to all domestic DHS components and offices and to
       international offices.

       The Security Training Branch conducts derivative and original classification
       training, but DHS also has “train the trainer” programs to assist CCSOs in training
       to their employees. In addition, the division offers a 2-hour in-person seminar
       for all DHS employees that can also be conducted as a webinar for personnel in
       the field or overseas and for senior management. Security Training Branch
       management pointed out that this training has reached every State and a large
       number of international posts, and that other Federal partner agencies use it to
       train personnel with clearances.

       DHS has determined that any individuals who do or may perform a derivative
       classification action and individuals with access to classified systems shall be
       considered derivative classifiers and as such are mandated to attend derivative
       classifier training. Some components train all security clearance holders and
       some train only those needing access to C-LAN or the Homeland Secure Data
       Network classified data systems.

       The Security Training Branch chairs the Security Training Working Group (STWG),
       which is comprised of security personnel from each component and various
       other security personnel. The STWG has standardized the derivative
       classification training department-wide. The training is now given in three
       venues; instructor-led (in person), Webinar (a combination of personnel use
       their computers to connect to the Homeland Security Information Network and a
                                           20

www.oig.dhs.gov	                                                              OIG-13-106 

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       phone bridge), and computer-based training (CBT). The CBT was developed by
       the Security Training Branch and USSS and met 508 compliance standards, which
       are federally mandated for creating accessible content for people that use
       assistive technologies.

       The CBT was disseminated to the components to load on their Learning
       Management Systems (LMS) to provide training. The CBT was able to be loaded
       onto the USSS LMS with no USSS 508 compliance issues; however, the CBT was
       not able to be loaded onto headquarters LMS due to not meeting headquarters
       508 compliance standards. DHS personnel can still load the CBT compact disk on
       their desktop computers to receive the training.

       Security Training Branch personnel stated that Section 508 compliance standards
       for component LMS seem to be less stringent than those for the headquarters
       LMS “DHScovery.” Training management would recommend that a section be
       dedicated to creating 508-compliant software training agency-wide, which would
       assist in more efficient, internal training software development. The derivative
       training is recorded in the Information Security Management System for all DHS
       personnel who receive the training and additionally in DHScovery for Federal
       headquarters personnel. All components also track completion of their
       employees in their respective training management systems.

       Intelligence Community Cross-cutting Issues


       I&A and the USCG are the DHS representatives to the IC, and we determined
       that there are no major issues with the IC as it relates to classification
       management policies and procedures. The only issue our IC members may have
       is with the possible single IC classification guide described in the Intelligence
       Community Classification Guidance Findings and Recommendations Report of
       January 2008, which included recommendations to move the IC toward common
       guidelines. DHS IC members believe that a single classification guide will have to
       take into account the different missions of IC members and unique access to
       sources and methods. DHS IC components believe the most significant benefit of
       a single classification guide would be the standardization of classification that
       transcends IC elements and is consistent and uniform.4




       4
        ODNI has an ongoing effort to create a single classification guide that would standardize the
       framework of all guides, provide standard definitions for the concepts behind information that
       needs to be protected, and describe damage to national security.

                                                 21

www.oig.dhs.gov                                                                           OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       I&A and the USCG maintain websites that provide access to electronic versions
       of ODNI updated policies and manuals. Personnel with the proper security
       clearances and a need to know have access to all policies and manuals via the C-
       LAN and the secret network. DHS has received all current and updated versions
       of ODNI and CAPCO policies through the Intelligence Policy Advisory Group
       (IPAG). The IPAG affords DHS the opportunity to provide feedback concerning
       DHS equities on all ODNI draft policies.

       I&A and USCG IC representatives believe that the continuance of establishing
       and maintaining standard classification markings and formats that are consistent
       with national policies and the statutory missions of IC members will enhance
       information protection and dissemination.




                                          22

www.oig.dhs.gov                                                             OIG-13-106 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This review was included in the OIG Fiscal Year 2013 Annual Performance Plan. Our
objectives were to assess whether applicable classification policies, procedures, rules,
and regulations have been adopted, followed, and effectively administered within DHS
and to identify policies, procedures, rules, regulations, or management practices that
may be contributing to persistent misclassification of material.

We conducted our fieldwork from September 2012 to February 2013 and interviewed
security managers and original and derivative classifiers; we reviewed documents from
DHS headquarters and 13 components and offices.

We conducted this review under the authority of the Inspector General Act of 1978, as
amended, and according to the Quality Standards for Inspection and Evaluation issued
by the Council of the Inspectors General on Integrity and Efficiency.




                                           23

www.oig.dhs.gov                                                               OIG-13-106 

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix B
Recommendations
We recommend that the Office of Management:

Recommendation #1: Ensure that DHS fully deploys the new Classification
Management Tool to all DHS components and offices when pilot testing is completed.

We recommend that the Office of the Chief Security Officer:

Recommendation #2: Create and implement a standard method for components to
collect and report information for the SF 311 Agency Security Classification
Management Program Data form.




                                          24

www.oig.dhs.gov                                                          OIG-13-106 

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Appendix C
Management Comments to the Draft Report

                                                                                 U.S. OcpartJHcnt of t-lomcland Sccurit}
                                                                                 \\.':'i<::hingf+'ln,   nc 70~/JI.


                                                                                Homeland
                                                                                Security
                                                       June 28, 2013


          ME'vlORANDUM FOR              Charle~   K. Erlwarcis
                                        Deputy Inspector General
                                        Office oflnspeclur General

           FRO 'vi:                     Jim H. Crumpacker ~(('z-L-
                                        Director                  ~
                                        Departmental GAO-Ot Liaison Of tee

           SUBJECT:                     OIG Draft Report, "Reducing Over-classification of DHS National
                                        Security Information" (Project '\o . 12- 161-ISP}


           l11ank you for the oppmtunity to review and comment on this draft report. The U.S Department of
           Humelancl Security (DHS) appreciates the Office oflnspector General's (OIG's) work in platming
           and conducting its review and issuing this report.

           The Department is pleased to note the 010 "determined that DHS has adopted ;md successfully
           implemented all policies and procedures required by applicable Federal rt:gulations and intdligence
           community directives." We also appreciate OIG's recognition that the DHS Office of the Chief
           Security Officer (OCSO), within the Management Directorate, and DHS components have
           "effectively implemented, managed, and provided oversight for a classified National Security
           infonnation program." DHS leadership remains committed to maintaining a vital, robust, credible,
           und proactive program for the administration and management of programs associated with the
           protection of classtficd and sensitive but unclassified information.

           The draft report contained two recommendations with which the Department concurs. Spccitlcally.
           OIG recommended :

           Recommendation 1: That the DHS Offict: uf Management ensure that DHS fully rleplnys the new
           Classification Management Tool to all DHS components and offiees when pilot testing is completed.

           Response: Concur. DHS Office of Intelligence and Analysis (!&A), through the National Security
           Systems- Joint Program Management Office (NSS-JPMO), and implemented by the Entt:rprist:
           Networked Support Services of Enterprise Services Division of the DHS Office of the Chief
           Information Officer's (OCIO) IT Services Office, is finaliz ing the pilot phase of testing the
           Classification Management Tool (CMT). The CMT is a standardized automated marking tool
           created for use throughout the Intelligence Community. The funded purchase request for DHS to
           procure the CMT is making its way through the procurement system to create an inter-agency
           agreement with the owning agency and is expected to be completed within the coming weeks. Upon
           receipt of payment, OCIO will proceed with full deployment of the tool to the Homeland Secure




                                                            25

www.oig.dhs.gov                                                                                                      OIG-13-106 

                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                 1             2
           Data "'etwork (HSDN) and C-LAN networks. Concurrent with full deployment and for a period of
           time thereafter, OCSO will a lso conduct initiill individualized training essential to the successful
           deployment and use of the tool. Estimated Completion Date (ECD): February 28,20 14.

           Recommendation 2: OlG also rec;ummemkd that the Ofli~.:e ufthe Chief Security Officer create
           and implement a standard method fo r components to collect and report information for the SF 3 11
           Agency Security Classification Management Program Data form.

           Response:    Concur. A standardized method of accounting for classification decisions may increase
           the accuracy and reliability of the final count provided to the Information Security Oversight Oft1ce
           (ISOO) as part of the annual reporting requirement, and, OCSO will exp lore the feasibility of
           creating ~uch a standard. However, the accuracy and reliability of data reported tlu-ough the Sf' 3 11
           report is a matter c urrently under discussion amongst reporting agencies w ithin the executive branch
           under the leadership of ISOO. The purpose ofthc discussion is to assess and re-evaluate the
           methods and criteria tor collecting the data, particularly as it relates to classification decisions made
           and classified information processed within an electronic environment. OCSO will continue to
           support the rsoo in its efforts to resolve long-standing issues associated with the reliability ttnd
           accuracy of this important reporting requirement and will follow their !earl in the puhl ication of any
           subst:quent pul i ~.:y ur guidance. Pending any changes to the reporting c1iteria stipulated by ISOO,
           OCSO will, in coordination with DHS Component Security Ofticials, evaluate the feasibility of
           creating a standard DHS method for collecting the data. ECD : September 30, 20 13.

            Again, thank you for the opportunity to review and comment on this draft report. Technical
            comments were previously submitted under separate cuvt:r. Please f~::d fre~:: to contact me if you
            have any questions_ We look forward to working with you in the future.




            ' The HSDN is a classified wide-area network utilized by th e Department, th e Components, and other partners.
            2
              The C-LAN is DHS's t op secret network_

                                                                      2




                                                                26

www.oig.dhs.gov                                                                                                              OIG-13-106
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix D
Document Review Results
                 OFFICE OF INSPECTOR GENERAL-OFFICE OF INSPECTIONS
                        CLASSIFIED DOCUMENT REVIEW RESULTS
                       U.S. DEPARTMENT OF HOMELAND SECURITY



LEVEL OF CLASSIFICATION

Top Secret                                                      60
Sensitive Compartmented Information                              4
Secret                                                         265
Confidential                                                    43
TOTAL                                                          372

TYPE OF DOCUMENT

Cable/Message                                                   66
Memo/Letter                                                     14
Electronic Media/Email/Slide Presentations                      64
Reports                                                        121
Other (Intelligence Assessments and Notes,
Briefings, Issue Papers, Talking Points)                       107
TOTAL                                                          372

BASIS FOR CLASSIFICATION

Classification Guide                                            80
Multiple Sources                                               215
Single Source/Other                                             77
TOTAL                                                          372

DURATION OF CLASSIFICATION

Declassification less than 10 years                              0
Declassification 10 years                                       30
Declassification >10 years, <25 years                           69
Declassification 25 years                                      101
25X1 – 25X9                                                     22
50X1 – HUM or 50X2 – WMD                                       114
Source Marked X1 – X8 (valid use)                                1
Invalid Use of X1- X8                                            0
Other Invalid Marking                                           18
Not Indicated                                                   17
TOTAL                                                          372


DISCREPANCIES

Declassification                                                23
Unknown Basis for Classification/“Derived From” Line             4

                                                   27
www.oig.dhs.gov                                                       OIG-13-106
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

“Classified By” Line- Derivative Classification                  14
Portion Marking                                                   3
Multiple Sources Not Listed                                       7
Marking                                                           4
Original/Derivative                                               0
“Reason” Line                                                     2
Duration                                                          2
TOTAL                                                            59




                                                  28
www.oig.dhs.gov                                                        OIG-13-106
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix E
Major Contributors to This Report
Deborah L. Outten-Mills, Acting Assistant Inspector General for Inspections
Anthony D. Crawford, Team Lead, Intelligence Officer
Ryan P. Cassidy, Program Analyst




                                           29

www.oig.dhs.gov                                                               OIG-13-106 

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix F
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
DHS Management Liaison
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Committee on Homeland Security and Government Affairs
Select Committee on Intelligence
Committee on Homeland Security
Committee on Oversight and Government Reform
Permanent Select Committee on Intelligence




                                              30

www.oig.dhs.gov                                                  OIG-13-106 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
